HHS/OIG-Audit--"Clarification Needed on What Constitutes an Advisory and Assistance Services Contract, (A-14-91-02056)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Clarification Needed on What Constitutes an Advisory and Assistance
Services Contract," (A-14-91-02056)
February 6, 1992
Complete Text of Report is available in PDF format
(472 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report presents the results of our review of contracted advisory
and assistance services (AAS) as required by Section 1114(b) of Title 31 of
the United States Code. Our review disclosed that the Health Care Financing
Administration did not report at least $2.3 million in AAS acquisitions to the
Department and the Federal Procurement Data System. These inaccuracies were
due to the lack of a clear definition of what constitutes an AAS obligation
which causes the operational components to apply their own interpretation of
the Executive Office of Management and Budget Circular A-120 criteria.